                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: A12040027                                                                    Page 1 of 1



                 OIG conducted an investigation into an allegation that an NSF proposal 1 contained
         plagiarism. We identified text copied verbatim into the proposal without appropriate credit. The
         PI (Subject) 2 noted he was responsible for finalizing the proposal and apologized for copying
         text without attribution. OIG concluded, based on a preponderance of the evidence, that the
         Subject knowingly committed plagiarism, which was a significant departure from accepted
         practices. We recommended NSF take actions to protect the federal interest. The Deputy
         Director concurred and took appropriate action.

                 This memo, the attached Report of Investigation, and the Deputy Director's letter
         constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
CONFIDENTIAL                              CONFIDENTIAL




     National Science Foundation
       Office of Inspector General




                     Confidential
                Report of Investigation
               Case Number A12040027
                             '

                  October 16, 2012




                                      NSF OIG Form 22b (12/1 0)
                                       CONFIDENTIAL


                                    Executive Summary

Allega.tion:     Plagiarism in an SBIR Phas~ I proposal.

OIG Inquiry:     We identified 61 lines of improperly cited, copied text from 6 different
                 sources in the Subject PI's proposal. The Subject's explanation to our inquiry
                 did not dispel the allegation.

OIG
Investigation:   Due to the company's small size, we did not refer an investigation. After
                 reviewing other documents for a pattern of plagiarism, we spoke with the
                 individual the subject named as a collaborator. Neither the collaborator's
                 explanation nor the details provided by the subject mitigate the act of using
                 plagiarized text in his proposal. We concluded the Subject committed research
                 misconduct.

                 The Act: The Subject plagiarized approximately 61lines of text from 6 source
                 documents.

                 Intent: We concluded the Subject acted knowingly.

                 Standard of Proof: We concluded a preponderance of the evidence standard
                 supported our fmding that the Subject knowingly plagiarized the text.

                 Significant Departure: The Subject's copying of text represents a significant
                 departure from accepted practices.

OIG
Recommendations:
             Send a letter of reprimand to the Subject informing him that
             NSF has made a fmding of research misconduct.
                 Require the Subject to certify for 1 year that any material he submits to NSF
                 contains no plagiarized, falsified, or fabricated material.
                 Require the Subject to complete a comprehensive responsible conduct of
                 research training program within 1 year ofNSF's fmding.

                 Prohibit the Subject from serving as a reviewer, advisor, or consultant on any
                 NSF proposal for 1 year.




                                              1
                                                   CONFIDENTIAL



                                                   OIG's Inquiry

          Our office reviewed an allegation of plagiarism in an NSF-funded proposa1 1 and
  identified approximately 61 lines of copied text from 6 sources. 2 Only one of the sources. was
  cited and referenced in the proposal. None of the copied text was offset or distinguished in any
  way to enable a reader to differentiate the PI's (the subject's) own text from the copied text.
. None of the source authors are explicitly named as co-Pis or collaborators and thus should have
  receiv~d proper attribution as authors of the copied text.


 The table below shows the text the Subject copied by source.·

        Source             Number of copied             Citation to     Source
       Document                lines                     Source       Referenced
        Source 1                     15                      NO          NO
        Source 2                     16                      NO         YESj

        Source 3                     11                      NO          NO
        Source 4                     5                       NO          NO
        Source 5                     7                       NO          NO
        Source 6                     7                       NO          NO
          Total                      61



        We wrote to the Subject regarding the copied text4 , and in his response he admitted: "I
did use materials from some of those documents. In some cases, I copied directly from the
references." 5 He described the lack of citation in certain instances as "inadvertent omission. "6
The Subject stated he had not used one of the sources (Source 1) we identified. Instead, he
claimed he had copied the questioned text from two other sources. One of those two sources did
contain most of the copied text we ·identified from Source 1 and was written by the author of
Source 1.

        Regarding the text from Sources 2-6, the Subject claimed the material is a "well-known
background description," 7 a "general concept," 8 or "common knowledge,"9 but he did not then
offer any independent sources that contained the same text. In three cases the Subject provided



  Source              are at     2, 1-5.
3
  Cited in references, but not in proximity to copied text
4
  Tab3
5
  Tab4,p.l.
6
  Tab 4, page 9
7
  i.e. Tab 4, pages 3, 5, and 8
8
  Tab 4, page 5
9
  Tab 4, page 5

                                                             2
                                          CONFIDENTIAL



additional sources for the material he cited as "background," but most of these sources were
either written by the same author as the copied text or do not contain the same text. The Subject
did not provide independent sources to show the copied text was constrained by technical
language.

        The Subject acknowledged "I have erred due to inadvertent omissions and by not being
sufficiently diligent to cite the original references at every instance," 10 but it was not his
"intention to plagiarize." 11 In responding to our question regarding other possible plagiarism, he
admitted that he lised the same copied text in a rejected Phase II proposal for the same project
also submitted to NSF.

       We found the Subject's explanation inadequate to dispel the allegation and determined
there was sufficient substance to proceed to an investigation. Because the Subject's employer is a
small business with less than 10 employees, we determined that the company lacked adequate
resources to conduct an objective research misconduct investigation. Consequently, we
conducted our own investigation. 12

                                       OIG's Investigation

        In his response to our inquiry letter, 13 the Subject indicated that some of the copied text
was background information he obtained while working with consultants. We sent the Subject a
second letter requesting clarification of his comments. 14 In his response, 15 the Subject named
two individuals with whom he consulted; he stated Consultant 11 provided publications and
advice, while Consultant 2 helped the Subject write the NSF proposal. 17 Neither consultant was
mentioned in the proposal.

       Although the Subject received material from the consultants, he asserted that the
responsibility for the copied text was his alone. The Subject stated the consultants

          provided several paragraphs for the background and significance sections to
          help me prepare the introductory part of the NSF proposal .... However, I
          was the person responsible to finalize the proposal and ... used materials
          directly from publications .... 18

He clarified that he used "materials directly from publications without providing the
complete references at all places where the material was copied." 19


10
   Tab 4, page 9
11
   Tab 2, page 9
12
   45 C.P.R.§ 689.5(f).
13
   Tab 4
14
   Tab 5



16···················
15
   Tab 6
17
   Tab 6, p. 2.
18
   Tab 6, pages 1-2
19
   Tab 6, page 2

                                                 3
                                                  CONFIDENTIAL


        The Subject re-stated it was not his intention to plagiarize, but he is aware that his
proposal contains copied text without proper attribution. He apologized for "these mistakes" and
claims that he will be "careful and diligent" in the future. 20

       The Subject's biographical sketch indicates he received both his masters and his
doctorate in the U.S. 21 Further, he lists numerous peer reviewed publications on his biographical
sketches, primarily conference proceedings. His professional experience and publication record
support the conclusion that he knew about proper citation practices.

                                               OIG's Assessment

        NSF's Research Misconduct Regulation states that a fmding of misconduct requires: (1)
there be a significant departure from accepted practices of the relevant research community; (2)
the research misconduct J:>e committed intentionally, or knowingly, or recklessly; and (3) the
allegation be proven by a preponderance of the evidence. 22

                                                          The Act

       The Subject copied approximately 611ines of text from 6 different source documents in
his NSF proposal. The NSF Grant Proposal Guide is clear:

           NSF expects strict adherence to the rules of proper scholarship and attribution.
           The responsibility for proper attribution and citation rests with authors of a·
           proposal; all parts of the proposal should be prepared with equal care for this
           concem23
                                                                                                  '
        In offering material composed by others as his own, the Subject misrepresented his own
efforts and presented reviewers with an incorrect measure of his knowledge of the science.
Consequently, by failing to appropriately distinguish verbatim copied text from his own
original text, the Subject presented the work of others as his own work and, thus, failed to give
appropriate credit to the actual authors.



       By the Subject's own admission, he failed to appropriately cite the text originating in the
source documents. There were no quotation marks or indentations to distinguish the copied text
from the Subject's own text. We do not find it feasible that the Subject could have copied this
amount of unattributed text inadvertently. The Subject, by his own admission, knew that text
in the proposals was not his but still included it in his proposals without proper citation and
without anything to distinguish the copied text from his own words. We therefore conclude that
the Subject acted knowingly when he copied text and the figures into his proposals.


20
     Tab 6, page 2
21 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . .
22
     45 C.F.R. §689.2(c).
23
     NSF Grant Proposal Guide, Chapter l, Section D .3.

                                                            4
                                                 CONFIDENTIAL



                                              Significant Departure

        By a preponderance of evidence standard, we conclude the Subject knowingly copied
unattributed text into his proposals without appropriately distinguishing the text from his own
work. In doing so, the Subject significantly departed from the accepted practices of his research
community and NSF. A major scientific publisher in the Subject's field states, "Plagiarism
constitutes unethical scientific behavior and is never acceptable. Proper acknowledgement of
the work of others used in a research project must always be given." 24 Accordingly, we
conclude that the Subject knowingly plagiarized and, hence, committed research misconduct.

                                      OIG's Recommended Disposition

        In deciding what actions are appropriate when making a finding of research misconduct,
NSF must consider several factors. These factors include how serious the misconduct was;
degree of intent; whether it was an isolated event or part of a pattern; its impact on the research
record; and other relevant circumstances. 25

                                                   Seriousness

        As we noted above, we concluded · the preponderance of evidence supports the
conclusion that the Subject acted knowingly when he plagiarized material into his proposals.
Plagiarism violates research integrity and is a significant departure from accepted practices in
the. research community. We conclude the amount of plagiarized material is sufficiently
serious to warrant a fmding of research misconduct.

                                         Impact on the Research Record

      The effect on the research record as a result of the Subject's actions was moderate.
Because this proposal was awarded, it is available to the public through a Freedom of
Infm;mation Act request.

                                                      Pattern

            We found no evidence of pattern of plagiarism.

                                               Subject's Response

           We provided the Subject with a copy of our draft report and attachments for comment.26
    We reviewed the Subject's response27 and determined that it did not provide adequate reason for
    OIG to change its original determinations and recommendations. The subject raised some points

    24
.     See the "SPIE Code of Ethics" at http://spie.org/Documents/ConferencesExhibitions/SPIE-Code- of-Etbics.pdf.
    In his biographical sketch submitted to NSF, the Subject lists a paper published in a SPIE j o u r n a l . -

       45 C.F.R. §689.3(b).
    26
       Tab 8.
    27
       Tab 9.

                                                         5
                                                   CONFIDENTIAL


already addressed in our report, and reiterated that he takes responsibility and expressed regret
for his actions. He "agree[d with] the conclusion iri the report that [his] explanation [did] not
dispel the allegation" and that "there is no excuse to the mistakes [he] made."

                                                Recommendations

         Based on the evidence, we recommend NSF:

               Send the Subject a letter of reprimand notifying him that NSF has made a finding
of research misconduct 28

        •       Require the Subject to certify to the Assistant Inspector General for Investigations
(AlGI) his completion of a responsible conduct --of research training program and provide
documentation of the program's content within 1 year of NSF's finding. 29 The instruction should
be in an interactive format (e.g., an instructor-led course) and specifically include plagiarism.

         For a period of 1 year as of the date of NSF's finding:

                 Require the Subject to submit a contemporaneous certification to the AlGI, for
each document (proposal, report, etc.) to which the Subject contributes for submission to NSF
(directly or through his institution), that the document does not contain plagiarism, falsification,
or fabrication. 30

        •      Bar the Subject for a period of 1 year from participating as a peer reviewer,
advisor, or consultant for NSF. 31




28
   A Group I action45 C.F.R. 689.3(a)(l)(i).
29
   This action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
30
   This action is similar to 45 C.F.R 689.3(a)(l)(iii).
31
   A Group ill action 45 C.F.R 689.3(a)(3)(ii).

                                                           6
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




                                                                                MAR Z1 2013
    OFFICE OF THE
   DEPUTY DIRECTOR




VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




       Re:     Notice of Research Misconduct Determination

Dear-
        You served as a Principal Investigator on a Small Business Innovation Research Phase I
proposal submitted for          to the National Science Foundation ("NSF") entitled,-
                                                                  As documented in the attached
Investigative Report prepared by NSF's Office of Inspector General ("OIG"), this proposal
contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defmed as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1 (a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding ofresearch misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

         Your proposal contained 61 unique lines of text copied from six source documents. By
submitting a proposal to NSF that copied the ideas or words of another without adequate
attribution, as described in the OIG Investigative Report, you misrepresented someone else's
work as your own. Your conduct unquestionably constitutes plagiarism. I therefore conclude
that your actions meet the definition of "research misconduct" set forth in NSF's regulations.
                                                                                               Page2
         Pursuant to NSF regulations, the Foundation must also determine whether to make a
 finding of misconduct based on a preponderance of the evidence. 45 CFR § 689 .2(c). After
 reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
 evidence, your plagiarism was committed knowingly and constituted a significant departure from
  accepted practices of the relevant research community. I am, therefore, issuing a finding of
 research misconduct against you.

          NSF's regulations establish three categories of actions (Group I, II, and ill) that can be
  taken in response to a finding of misconduct. 45 CFR § 689 .3(a). Group I actions include
. issuing a letter ofreprimand; conditioning awards on prior approval ofparticular activities from
  NSF; requiring that an institution or individual obtain special prior approval of particular
  activities from NSF; and requiring that an institutional representative certify as to the accuracy of
-reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
  Group II actions include award suspension or restrictions on designated activities or
  expenditures; requiring special reviews of requests for funding; and requiring correction to the
  research record. 45 CFR § 689.3(a)(2). Group ill actions include suspension or termination of
  awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
  or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3). .

         In determining the severity of the sanction to impose for research misconduct, I have
 considered the seriousness of the misconduct, and our determination that it was committed
 knowingly. I have also considered the fact that your misconduct was an isolated incident, and
 that the proposal at issue was funded. In addition, I have considered other relevant
 circumstances. 45 CFR § 689.3(b).

        After assessing the relevant facts and circumstances of this case, I am taking the
 following actions against you:

         (1) Until March 15, 2014, you must provide certifications to the OIG that any proposal or
             report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
             fabricated material;        ·

         (2) By March 15,2014, you must complete a responsible conduct of research training
             program, for which the instruction should be in an interactive format (e.g., an
             instructor-led course) and specifically include plagiarism. You must provide
             documentation of the program's content and proof of its completion to the OIG; and

         (3) Until March 15, 2014, you are prohibited from serving as a reviewer, advisor, or
             consultant for NSF.

         The certifications and written documentation of the training program should be submitted
 in writing to NSF's OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard,
 Arlington, Virginia 22230.
                                                                                            Page3
Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please c a l l - , Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                     Cora B. Marrett
                                                     Deputy Director




Enclosures
- Investigative Report
- 45 C.F.R. Part 689
